     FY 2000 DOD SUPERFUND FINANCIAL TRANSACTIONS



Report No. D-2001-174                    August 16, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD Home
  Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937 (DSN
  664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703) 604-
  8932. Ideas and requests can also be mailed to:

                       OAIG-AUD (ATTN: AFTS Audit Suggestions)
                        Inspector General, Department of Defense
                           400 Army Navy Drive (Room 801)
                               Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
CEFMS                 Corps of Engineers Financial Management System
CERCLA                Comprehensive Environmental Response, Compensation, and
                         Liability Act
EPA                   Environmental Protection Agency
                        Office of the Inspector General, DoD

Report No. D-2001-174                                               August 16, 2001

  (Project No. D2001FJ-0003)

               FY 2000 DoD Superfund Financial Transactions

                                Executive Summary

Introduction. Annual audits of DoD Superfund financial transactions are required by
section 9611(k) title 42, United States Code. The Environmental Protection Agency
(EPA) manages the Superfund, which is a trust fund that Congress established to respond
to hazardous waste emergencies and to fund the cleanup of hazardous waste. The
Superfund pays for the cleanup of hazardous waste when the responsible party either
cannot be identified or will not perform the cleanup work and when a State will not
assume responsibility. The Army Corps of Engineers (the Corps) manages the design
and construction of cleanup sites paid for by the Environmental Protection Agency with
money from the Superfund. The Environmental Protection Agency issues program
authority to the Corps through interagency agreements. During FY 2000, for Superfund
projects, the Corps recorded 73,106 financial transactions totaling $597.3 million.

Objectives. The overall audit objective was to determine whether the Corps properly
administered its portion of the Superfund. Specific objectives were to determine whether
the Corps supported and accurately recorded obligation and disbursement transactions
charged to Superfund projects during FY 2000, and to assess the Corps management
control program as it relates to Superfund transactions.

Results. We audited 12 of the 44 Corps organizations that used the Corps of Engineers
Financial Management System to record Superfund financial transactions. The statistical
projections indicate that the Superfund financial transactions, valued at $597.3 million,
had a maximum net misstatement less than $1,677,541.00 (0.2809) of the total value
recorded. The small number of discrepancies did not indicate a systemic control
weakness or materially affect our conclusions that the Corps properly administered its
portion of the Superfund. The management controls we reviewed were effective in that
we identified no material weakness. See Appendix A for details on the management
control program.
The 1980 statutory requirement for this annual audit of all Superfund financial
transactions should be amended. The need for the annual audit in DoD is questionable
because the audits determined that the Superfund financial transactions were:

       99.80 percent accurate in FY 1998,
       99.94 percent accurate in FY 1999, and
       99.72 percent accurate in FY 2000.

The annual required audit of the Superfund also overlaps with requirements of the Chief
Financial Officers Act of 1990 and causes an unnecessary use of audit resources. We
proposed a legislative change in December 1999 to delete the annual audit requirement of
the Superfund in the Comprehensive Environmental Response, Compensation, and
Liability Act. However, the EPA objected to the Office of Management and Budget to
changes to the Comprehensive Environmental Response, Compensation, and Liability
Act, and the legislative proposal was not sent to Congress. The legislative proposal about
the annual audit requirement was revised to address the EPA concerns and was
resubmitted to DoD in October of 2000. The EPA did not object to the revised
legislative proposal and it was submitted to the Congress in 2001.

Management Comments. We provided a draft of this report on July 5, 2001. Because
this report contains no recommendations, written comments were not required, and none
were received. Therefore, we are publishing this report in final form.




                                            ii
Table of Contents

Executive Summary                              i

Introduction
     Background                               1
     Objectives                               2

Finding
     Superfund Financial Transactions         3

Appendixes
     A. Audit Process
          Scope                                6
          Methodology                          7
          Management Control Program Review    8
     B. Summary of Prior Coverage             10
     C. Report Distribution                   11
Background

    The Superfund is a trust fund that Congress established to respond to hazardous
    waste emergencies. The Superfund also funds the cleanup of hazardous waste
    when the responsible party either cannot be identified or will not perform the
    cleanup work and when a State will not assume responsibility. The
    Environmental Protection Agency (EPA) is the manager of the Superfund.

    The Army Corps of Engineers (the Corps) is responsible for managing the design
    and implementation of remedial action plans for cleanup, using money from the
    Superfund, of certain sites on the national priority list that EPA designated. The
    EPA issues program authority to the Corps through interagency agreements.
    During FY 2000, for Superfund projects, the Corps recorded obligation and
    disbursement transactions totaling $597.3 million.

    Audit Requirements. Annual audits of all Superfund financial transactions are
    required by the Comprehensive Environmental Response, Compensation, and
    Liability Act (CERCLA) in section 9611(k), title 42, United States Code. The
    audit was required to verify that the Superfund was properly administered and that
    claims were appropriately and expeditiously considered.

    The requirement for the audit was enacted in 1980. At that time, Congress had
    valid concerns about recordkeeping related to uses of the Superfund. Since then,
    the Chief Financial Officers Act of 1990 required annual financial statement
    audits.

    As a result of the Chief Financial Officers Act requirements, the Corps improved
    its financial management system and practices, which improved handling of
    Superfund financial transactions. Also, the annual audit requirements in
    CERCLA and the Chief Financial Officers Act overlap and cause an unnecessary
    use of audit resources. The CERCLA requirement for an audit of all payments
    and obligations is more labor intensive than the Chief Financial Officers Act audit
    requirements. There is no longer a need for the annual audit of Superfund
    financial transactions in DoD.

    The Office of the Inspector General, DoD, prepared a legislative proposal in
    December 1999 to delete the annual audit requirement in CERCLA. However,
    the EPA objected to the Office of Management and Budget concerning any
    changes to CERCLA, and the legislative proposal was not sent to Congress. After
    20 years of audits and now excellent Superfund financial records at the Corps, the
    CERCLA requirement for the audit is unjustified. The legislative proposal to
                                          1
     revise the annual audit requirement was revised to address the EPA concerns and
     was resubmitted to DoD in October 2000. The EPA accepted this legislative
     proposal the Office of Management and Budget submitted the proposal to
     Congress.



Objectives

     The overall audit objective was to determine whether the Corps properly
     administered its portion of the Superfund. Specific objectives were to determine
     whether the Corps supported and accurately recorded obligation and disbursement
     transactions charged to Superfund projects during FY 2000. We also evaluated
     the Corps management control program as it relates to Superfund transactions.
     See Appendix A for a discussion of the audit scope and methodology and our
     review of the management control program.




                                         2
            Superfund Financial Transactions
            Using statistical sampling to select the audit sites, we audited 12 of the 44
            Army Corps of Engineers organizations that used the Corps of Engineers
            Financial Management System to record Superfund financial transactions.
            The statistical projections indicate that the Superfund financial
            transactions, valued at $597.3 million, had a maximum net misstatement
            less than $1,677,541.00 (0.2809) of the total value recorded and was not
            material. The small number of discrepancies did not result in any
            systemic control weakness or materially affect our conclusions that the
            Corps of Engineers properly administered its portion of the Superfund.
            The 12 Corps organizations had adequate management controls over the
            Superfund transactions.

Criteria for Superfund Transactions

     The criteria for the Superfund are found in the EPA guidance for Federal
     agencies, “Superfund Financial Management and Recording,” January 1989. The
     guidance requires authorization and documentation for all costs charged to
     Superfund projects. EPA can then sustain cost claims in court while attempting to
     recover funds from responsible parties. Specifically, the guidance requires each
     cleanup site to retain documents. Documentation should include the following:

            • time and attendance records

            • pay estimates

            • contractor invoices with project officer approval
            • proof of payment

            • progress reports

            • interagency agreements and

            • worksheets showing calculations of indirect costs.




                                            3
Administration of the Superfund

    The 12 Corps organizations properly administered the FY 2000 Superfund
    financial transactions for the statistically selected sample. In our review of
    financial transactions charged to the Superfund, we did not identify any material
    errors.

    Statistical Sample of Corps Locations. We statistically sampled $25.4 million
    of the $597.3 million in FY 2000 Superfund financial transactions processed
    through CEFMS in FY 2000. The sample consisted of 30 different samples of 25
    transactions each, but required audit work at only 12 locations. The sites selected
    for review were the Corps districts in Omaha, Nebraska; Walla Walla,
    Washington; New York, New York; Boston, Massachusetts; Seattle, Washington;
    Mobile, Alabama; Baltimore, Maryland; Jacksonville, Florida; New Orleans,
    Louisiana; Philadelphia, Pennsylvania; the North Western Division, Portland,
    Oregon; and Corps Headquarters, Washington, D.C.

    Supporting Documentation. The 12 statistically selected Corps organizations
    properly administered FY 2000 Superfund financial transactions for the 750
    sample transactions. The Corps organizations were generally able to provide
    supporting documentation for the Superfund financial transactions selected for
    review. Supporting documentation for obligations consisted of contracts, contract
    modifications, interagency or interdistrict agreements, travel authorizations, and
    purchase requests. Disbursements were supported by contracts, contract invoices,
    receiving reports, time sheets, and other appropriate documents. The documents
    supporting the transactions were properly authorized and recorded.

    For the statistically selected transactions reviewed at the 12 Corps organizations,
    the audit disclosed no material errors. Specifically, the organizations were able to
    provide accurate and reliable supporting documentation for all but an immaterial
    amount ($6,750.03 absolute value) of the transactions reviewed.

    Discrepancies were found in three Corps Districts and one Corps Division. The
    discrepant transactions in each Corps organization were as follows.

    Omaha District. In the Omaha District, three transactions were determined to be
    either erroneous or not fully supported. Two of the discrepancies, valued at
    $6,123.94, were for transactions associated with the supervision and
    administration charges for Superfund projects in the Rapid Response program. In
    April 2000, the Rapid Response program's request to use actual cost rather than
    the flat rate method to capture supervision and administration costs was approved.
    The Lammers Barrel Factory, Rapid Response Superfund project was erroneously
    established in CEFMS under both the actual cost and flat rate method. This
    resulted in the duplication of supervision and administrative charges to the
                                           4
   Superfund for this project. Another labor transaction valued at $38,720.81 could
   not be fully supported. The employee time sheets did not all agree with the
   timekeeping system for (1 of the 25 employees) whose time made up the
   transaction. The timekeeper error consisted of 2.5 hours of annual leave charged
   to the Superfund, which resulted in an overcharge of $181.74. The Omaha
   District initiated action to adjust the erroneous transactions.

   Seattle District. In the Seattle District, one revolving fund transaction was not
   fully supported. The discrepancy, valued at $184.00, resulted from an incorrect
   rate that was applied to the Revolving Fund Facility Account titled "Engineering
   Automation Services". The Seattle District initiated action to adjust the
   accounting records for the project.

   North Western Division. In the North Western Division, Portland, Oregon, one
   transaction was determined to be inappropriately charged to the Superfund. The
   Division incorrectly charged a $250.00 cash award to the Superfund. The
   justification used for the on-the-spot award cited the "extra special job on the
   Restoration of Abandoned Mines Program." The Restoration of Abandoned
   Mines Program is not a Superfund program and it would not be appropriate for
   the Superfund to bear the burden of this expense.



   Mobile District. In the Mobile District, supporting documentation could not be
   provided for one revolving fund transaction valued at $10.35. The transaction
   was for a Federal Express delivery charge. The Mobile Corps District Internal
   Review Staff issued Audit Report No. CESAM-IR 01-02, "Review of Travel
   Office FED EX Procedures," January 3, 2001. In that Report the weaknesses of
   the process have been identified and corrective actions have been initiated.

Summary

   We reviewed statistically selected financial transactions at 12 Corps
   organizations. In most cases, the policies, procedures, and controls established by
   EPA, DoD, and the Corps to manage Superfund obligations and disbursements
   were effective. Also, we found no material errors for the transactions tested. We
   are 97.5-percent confident that the net misstatement of the total dollar value of the
   Superfund financial transactions recorded in the CEFMS is not greater than
   $1,677,541. The errors that occurred were not material when projected to the
   entire population of transactions, and did not indicate a systemic problem.
   Therefore, we are not making any recommendations. The obligations and
   disbursements that represented FY 2000 DoD Superfund financial transactions
   were accurately recorded and free of material error or misstatement.

                                         5
Appendix A. Audit Process

Scope

    We reviewed the policies, procedures, and controls that EPA, DoD, and the Corps
    established for financial management of Superfund obligations and
    disbursements. During FY 2000, for Superfund projects, the Corps recorded
    financial transactions totaling $597.3 million.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the Secretary
    of Defense annually establishes DoD-wide corporate-level goals, subordinate
    performance goals, and performance measures. This report pertains to
    achievement of the following goal, subordinate performance goal, and performance
    measures:

           •   FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
               future by pursuing a focused modernization effort that maintains U.S.
               qualitative superiority in key warfighting capabilities. Transform the
               force by exploiting the Revolution in Military Affairs, and reengineer
               the Department to achieve a 21st century infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
               and information management. (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
               on financial statements. (01-DoD-2.5.2.)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and goal:

           •   Financial Management Functional Area. Objective: Strengthen
               internal controls. Goal: Improve compliance with the Federal
               Managers’ Financial Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office has
    identified several high-risk areas in DoD. This report provides coverage of the
    Financial Management high-risk area.




                                          6
Methodology

    Use of Computer-Processed Data. We relied on computer-processed data
    extracted from CEFMS. Although we did not formally assess the reliability of the
    computer-processed data, the source documentation agreed with the computer-
    processed data used in our sample. We did not find errors that would preclude the
    use of the computer-processed data to meet the audit objective.

    Sampling Plan. The purpose of the statistical sampling plan was to estimate the
    net misstatement of the total dollar value reported for FY 2000 DoD Superfund
    financial transactions, as reported in CEFMS.

    Audit Universe Represented. The CEFMS database contained the FY 2000
    DoD Superfund financial transactions. The CEFMS database financial
    transactions consisted of 73,106 transactions with a value of $597.3 million at
    44 locations.

    Sampling Design. The sampling design used to determine the accuracy of the
    total dollar value reported was a two-stage design. The probability was
    proportional to size, with replacement at the first stage, and stratification at the
    second stage. At the second stage, the transactions were stratified into two strata,
    revolving fund and labor transactions, and all others. We selected 30 different
    samples of 25 transactions each, 10 from the revolving fund and labor
    transactions, and 15 from the all other transactions. Although we selected
    30 different samples, it required audit work at only 12 different locations.

    Sample Results. The table below lists the number of items sampled and the errors
    identified by location.

                                  Results of Review
    Location              Number               Value of       Errors      Value of
                          Sampled                Sample                     Errors
    Boston                   225        $ 6,933,654.32             0    $        0
    Philadelphia             100          12,811,767.89            0             0
    Omaha                    100             794,871.76            3      6,305.68
    Baltimore                  75          1,003,953.71            0             0
    Seattle                    50          1,314,524.66            1        184.00
    Washington                 50            108,270.96            0             0
    New York                   25          1,606,936.86            0             0
    Mobile                     25             77,075.75            1         10.35
    Walla Walla                25             26,927.27            0             0
    Portland                   25             17,313.86            1        250.00
    New Orleans                25            256,869.13            0             0
    Jacksonville               25            479,717.76            0             0
       Total                 750         $25,431,883.93            6     $6,750.03
                                          7
    Statistical Projection. We derived the following statistical estimate of the
    accuracy of the CEFMS dollar values from our sample data. We are 97.5- percent
    confident that the net misstatement of the total dollar value of the Superfund
    financial transactions recorded in the CEFMS is not greater than $1,677,541
    overstated.

    Use of Technical Assistance. We obtained technical assistance on statistical
    sampling from the Quantitative Methods Division of the Audit Followup and
    Technical Support Directorate, Office of the Assistant Inspector General for
    Auditing, DoD.

    Audit Period and Standards. This financial-related audit was performed from
    October 2000 through June 2001 in accordance with auditing standards issued by
    the Comptroller General of the United States, as implemented by the Inspector
    General, DoD. Our review included tests of management controls that we
    considered necessary. We did our work in accordance with generally accepted
    Government auditing standards except that we were unable to obtain an opinion on
    our system of quality control. The most recent external quality control review was
    withdrawn on March 15, 2001, and we will undergo a new review.

    Contacts During the Audit. We visited or contacted individuals or organizations
    within DoD and EPA. Further details are available on request.

Management Control Program Review

    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive system
    of management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of the Corps management controls over the accounting and recording of
    Superfund financial transactions. Specifically, we reviewed the management
    controls established to ensure that Superfund obligation and disbursement
    transactions were reliable and completely recorded and that proper documentation
    was maintained to support the recorded transactions. Because we did not identify a
    material weakness, we did not assess the adequacy of management’s self-
    evaluation.

    Adequacy of Management Controls. The Corps had established management
    controls over the statistically sampled $25.4 million Superfund financial
                                           8
transactions reviewed. The obligation and disbursement of funds were in
accordance with applicable Superfund laws and regulations. Management
controls at the Corps districts that we visited were adequate in that we identified
no material management control weaknesses. However, in its review of the Army
Corps of Engineers, Civil Works, FY 2000 Financial Statement, the Army Audit
Agency concluded that the Corps needed to improve general and application
controls related to network and data processing activities for financial statements.
As a result, the Army Audit Agency auditors could not rely on the data in the
Corps of Engineers Financial Management System to produce financial
statements. The auditors were not able to render an opinion on the financial
statements.




                                      9
Appendix B. Summary of Prior Coverage

Inspector General, DoD
     Inspector General, DoD, Report No. D-2000-184, “FY 1999DoD Superfund
     Financial Transactions, ” August 31, 2000

     Inspector General, DoD, Report No. 99-257, “FY 1998 DoD Superfund
     Financial Transactions,” September 22, 1999

     Inspector General, DoD, Report No. 98-200, “FY 1997 DoD Superfund
     Financial Transactions,” September 16, 1998

     Inspector General, DoD, Report No. 97-212, “FY 1996 DoD Superfund
     Financial Transactions,” September 4, 1997




                                    10
Appendix C. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Environmental Security)


Department of the Army
Auditor General, Department of the Army
Commander, Army Corps of Engineers


Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Director, Environmental Protection Agency




                                          11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         12
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector General, DoD, who contributed to the report are listed below.

    Paul J. Granetto
    Richard B. Bird
    James L. Kornides
    John K. Issel
    Walter J. Carney
    Eric T. Thacker
    Clarence E. Knight
    Peter G. Bliley
    John P. Frawley
    Melanie S. Steel
    Karen M. Bennett
    Lusk F. Penn
    Stephen Wynne




                                     13
